No. 20INTHE

Supreme Court of tf)t Untteb States;
Gerald Dix,
Petitioner,
v.
Edelman Financial Services, LLC, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), I hereby certify that the Petition
for a Writ of Certiorari in Dix v. Edelman Financial Services, LLC, et al, No.
complies with the word limitations, as it contains 8,965 words.
I declare under penalty of perjury that the foregoing is true and correct.
SUBSCRIBED AND SWORN TO BEFORE ME this 1st day of March, 2021.

Gerald Dix
State of Illinois, County of Cook, ss. I, the undersigned, a Notary Public in and for the
said County, in the State aforesaid, DO HEREBY CERTIFY that Gerald Dix
personally known to me to be the same person whose name is subscribed to the
foregoing instrument, appeared before me this day in person, and acknowledged that
he signed the said instrument as his free and voluntary act as Witness for the uses
and purposes therein set forth
Given under my hand and official seal, this 1 -*"4

day of^3®££h

, 2021.

received
Commission expires:
Notary Public

Official Seal
Daniel Durling
Notary Public State of Illinois
My Commission Expires 06/22/2022

MAR -8 2021

